CERTIFICATE OF SERVICE
NO. TBD
Michael Yamashita and Michael Yamashita, Inc.
Petitioner(s)
v.
Scholastic Inc.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the MICHAEL
YAMASHITA AND MICHAEL YAMASHITA, INC. PETITION FOR WRIT OF CERTIORARI, by mailing three (3)
true and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Edward H. Rosenthal
Frankfurt Kurnit Klein & Selz, P.C.
28 Liberty Street
New York, NY 10005
(212) 826-5524
erosenthal@fkks.com
Counsel for Scholastic Inc.

Lucas DeDeus

January 13, 2020
SCP Tracking: Harmon-101 South Third Street-Cover White

